<html>
<title> - GETTING AWAY WITH MURDER, IS MEXICO A SAFE HAVEN FOR KILLERS?: THE DEL TORO CASE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




GETTING AWAY WITH MURDER, IS MEXICO A SAFE HAVEN FOR KILLERS?: THE DEL 
                               TORO CASE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 1999

                               __________

                           Serial No. 106-105

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                                ______

                    U.S. GOVERNMENT PRINTING OFFICE
63-595 CC                   WASHINGTON : 2000



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                Sharon Pinkerton, Deputy Staff Director
                 Gil Macklin, Professional Staff Member
              Sean Littlefield, Professional Staff Member
                         Andrew Greeley, Clerk
                    Cherri Branson, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 23, 1999....................................     1
Statement of:
    Bellush, James, husband of Sheila Bellush....................    12
    Borek, Jamison S., Deputy Legal Advisor, Department of State; 
      Mary Lee Warren, Deputy Assistant Attorney General, 
      Department of Justice; and Earl Moreland, district 
      attorney, Sarasota, FL, accompanied by Charlie Roberts, 
      assistant STATE attorney...................................    23
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida.................................................     7
Letters, statements, et cetera, submitted for the record by:
    Bellush, James, husband of Sheila Bellush, prepared statement 
      of.........................................................    16
    Borek, Jamison S., Deputy Legal Advisor, Department of State:
        Letter dated July 29, 1999...............................    61
        Prepared statement of....................................    26
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     9
    Moreland, Earl, district attorney, Sarasota, FL, prepared 
      statement of...............................................    51
    Warren, Mary Lee, Deputy Assistant Attorney General, 
      Department of Justice, prepared statement of...............    38

 
GETTING AWAY WITH MURDER, IS MEXICO A SAFE HAVEN FOR KILLERS?: THE DEL 
                               TORO CASE

                              ----------                              


                        WEDNESDAY, JUNE 23, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Gilman, Ros-Lehtinen, 
Souder, Hutchinson, Ose, Mink, Cummings, Kucinich, and 
Blagojevich.
    Also present: Representative Brady from Texas.
    Staff present: Sharon Pinkerton, deputy staff director; 
Steve Dillingham, special counsel; Gil Macklin and Sean 
Littlefield, professional staff members; Andy Greeley, clerk; 
Cherri Branson, minority counsel; and Ellen Rayner, minority 
chief clerk.
    Mr. Mica. Good morning. I would like to call this meeting 
of the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order. We will begin the hearing with my opening 
statement then I'll defer to other Members, and we'll proceed 
with our two panels today.
    Today, this subcommittee will address an issue that lies at 
the very root of many difficulties we, in the United States, 
have encountered with Mexico. And that is, the question of 
getting U.S. citizens who have committed capital crimes 
extradited back to the United States to face justice.
    The issue is a question of extradition. And it is at the 
heart of cooperating with law abiding nations in our world 
community. I believe it is the key to international law 
enforcement and respect for law and order.
    Unfortunately, international extradition, especially with 
our neighbor to the south, Mexico, is seldom publicly examined. 
That is why this issue is a subject of our oversight hearing 
today. A critical part of returning a United States citizen to 
face prosecution is the adherence to the current United States-
Mexican extradition treaty, which dates from 1980.
    The treaty is still in effect. It has never lapsed. It 
binds both governments to an agreed upon standard. It is about 
the very rule of law in our civilized societies, one that 
serves as the basis of both of our democracies. There is no 
doubt that the United States-Mexican extradition treaty of 1980 
has been taken for granted on numerous occasions. It is taken 
for granted in trade and commercial matters, and unfortunately, 
it is also taken for granted on matters of immigration.
    Today, this subcommittee will examine extradition problems 
the United States has had with the Government of Mexico. In 
particular, we are going to address the case of the State of 
Florida v. Jose Luis Del Toro. We will not take anything for 
granted in this hearing. I want to provide background on the 
depth of this particular case which I believe may be useful for 
the subcommittee.
    The U.S. Government has requested the extradition of Jose 
Luis Del Toro to Florida where he is wanted for the brutal 
murder of Sheila Bellush, a resident of Sarasota, FL. The U.S. 
Government has waited more than 18 months for action on this 
matter.
    The Government of Mexico has refused to turn over Jose Luis 
Del Toro, despite our complete cooperation and agreement to 
every demand.
    The U.S. Government has moved to extradite Jose Luis Del 
Toro under treaty agreements that are plain and clear. There is 
no argument concerning issues of law in this case. The United 
States Government is seeking the return of a United States 
citizen, not a Mexican national.
    Jose Luis Del Toro was born in the United States to 
American parents. His entry into Mexico was, in fact, illegal. 
When he was apprehended by Mexican authorities, he should have 
been sent back immediately to the United States. This did not 
happen, and we would have to ask ourselves why not.
    This hearing will examine the answers given to the United 
States Government about why the Government of Mexico has failed 
to cooperate on this and numerous other cases of extradition.
    The witnesses we will call include a bereaved husband and 
father of five and a decorated U.S. Marine, a State prosecutor 
from Florida, and a Member of Congress. We will hear, in our 
second panel from the U.S. Department of Justice and U.S. State 
Department officials.
    These witnesses will tell a story, and it isn't a pretty 
one. It is a story that we all must take into account because 
it tells a larger story of who our friends and allies are.
    In addition to the Del Toro case, Mexico has repeatedly 
failed to respect over 275 extradition requests in the last 10 
years. These cases include murder and illegal narcotics 
trafficking. In fact, Mexico has failed to extradite a single 
major Mexican drug kingpin.
    I'm certain that Mexico has become, unfortunately, a haven 
for murderers and drug lords. And personally, I hold great 
contempt for their inaction with respect to international law.
    Our hearing today will focus on one of the most serious 
cases, the Del Toro case. We'll highlight through this process, 
the Government of Mexico's lack of respect for international 
justice. That concludes my opening statement.
    Mrs. Mink, if I may----
    Mrs. Mink. I will yield to my colleague.
    Mr. Gilman. I thank the gentlelady.
    Mr. Mica. The gentleman from New York, Mr. Gilman, for an 
opening statement.
    Mr. Gilman. Thank you, Mr. Chairman. I want to thank you, 
Chairman Mica for holding this important hearing. I want to 
welcome Congressman Miller, who has been doing an outstanding 
job of keeping this issue before the Congress, and Mr. Bellush 
for his untiring efforts in coming before our panel this 
morning.
    Our hearing is about a simple search for justice that is 
why we are here today. We want extradition from Mexico of an 
American citizen who has been charged with the heinous crime of 
premeditated murder. We and the family of the victim, Sheila 
Bellush, want and deserve straight answers as to why Mexico and 
our government are not doing all that we can in the infamous 
Del Toro case.
    There can be no safe havens for anyone charged with murder 
and fleeing accountability within our system of justice. 
Whether those criminals flee to Thailand, Europe, Mexico or 
elsewhere around the globe, they must be held accountable to 
our institutions and the laws that they violate. Our nations 
must work together in helping us obtain that accountability. We 
also have a mutual obligation to do the same on our end as 
well.
    Today's hearing is not about extradition of high-level drug 
kingpins from Mexico and the numerous problems in the Mexican 
legal system when our government asks for extradition of 
Mexican nationalists involved in the illicit drug trade.
    We have had hearings on that vital question of Mexican drug 
kingpins and extradition to the United States. We are all too 
familiar with those problems and the endless delays and 
procedural maneuvering that continues south of the border.
    The United States-Mexico extradition treaty establishes 
that the Mexican Government may refuse to extradite persons for 
crimes punishable by the death penalty. The words extradition 
may be refused in article 8 of the treaty. Those mandatory 
words suggest that Mexican Government could have returned Mr. 
Del Toro without delay.
    Although the State of Florida clearly, for good reason, 
wished to seek the death penalty, the prosecutors in that case 
agreed to waive the death penalty at the Mexican Government's 
insistence. Now, Mr. Del Toro still sits in Mexico, appealing 
the extradition ruling while Sheila Bellush's family is 
grieving, deprived of the justice they truly deserve.
    I'll be raising these extradition concerns and problems at 
an interparliamentary meeting with the Mexican Congress later 
this week which I believe the chairman will attend as well. The 
case before us today involves a treaty between our Nation and 
Mexico in effect since 1980. It is a treaty that we both have 
an obligation to honor and to implement. If it is inadequate or 
can be changed, then let's move forward on that front. If it is 
being misused or misinterpreted, then let's raise our voices in 
concern.
    Our hearing today will highlight the need for more 
accountability in our legal system in a tragic case of 
injustice that's before us today, and we look forward to 
reviewing today's testimony.
    Thank you, Mr. Chairman, and I thank the gentlelady for 
yielding.
    Mr. Mica. I thank the Chair of our International Relations 
Committee and a member of our subcommittee for his opening 
statement. I now yield to our ranking member, the gentlelady 
from Hawaii, Mrs. Mink.
    Mrs. Mink. I thank the chairman of our subcommittee for 
yielding and for convening this very, very important meeting. I 
especially want to commend the gentleman from Florida, Mr. 
Miller, for his tenacious commitment to the search for justice 
in this case and to express my personal compassion and sympathy 
to Mr. Bellush and his entire family for the ordeal they have 
had to endure.
    While we may have some differences with respect to the 
performance of Mexico on other matters, it seems clear to me, 
in this case where our families have been especially aggrieved 
and the accused perpetrator of this crime is an American 
citizen, that any evasion of the responsibilities of the 
Government of Mexico ought to be put to task.
    I appreciate the opportunity to have the hearing point this 
out again, as you have so consistently, Mr. Miller, on previous 
occasions. I look forward to your testimony. I only regret that 
the Subcommittee on Education and Workforce has scheduled a 
conflicting markup on several bills which convenes in about 10 
minutes. I will have to absent myself until those markup votes 
are taken, hopefully I'll have a chance to return but I will 
certainly read the record. Again, welcome to both of you. Thank 
you very much.
    Mr. Mica. Thank the gentlelady. I would like to yield now, 
if I may. We have another member of this subcommittee who's 
joined us, Mr. Cummings from Maryland, who failed to debate me 
this morning on Fox because he was tied up in traffic, but I'm 
delighted to see that he's made it this morning for our 
hearing.
    Mr. Cummings. Mr. Chairman, I'm so happy that you made it 
clear I was tied up in traffic. I was ready for the battle but 
traffic stopped me. Mr. Chairman, extradition agreements enable 
countries to enforce their laws and pursue criminals after they 
have fled the country where they have committed a crime. 
Without strong extradition treaties in place, we face the 
possibility of creating a home base for criminals in the way of 
neighboring countries where they may be immune from punishment 
for the crimes they committed.
    Extradition treaties are important for us to examine, 
considering that with Canada to the north and Mexico to the 
south, the United States is bordered by two countries that 
criminals can travel to with virtual ease in hopes of escaping 
United States law.
    In keeping with this, we need to maintain an agreement and 
understanding with neighboring nations and those abroad so that 
fugitives of other countries do not feel as though the United 
States is a safe haven to avoid penalties or break the laws in 
their homeland.
    The case of Jose Luis Del Toro illustrates the need for 
examination of our country's extradition treaties with other 
nations. It seems that, as extradition appeals are subject to 
the review and judgment of the respective nation, there is a 
potentially dangerous level of subjectivity from case to case 
that could create loopholes for criminals in the future.
    The implication of the Del Toro case should prompt a 
thorough examination of both the extradition process and our 
extradition treaties with other nations to ensure that the laws 
of our Nation and others remain upheld even when fugitives 
attempt to escape to freedom.
    Thank you, Mr. Chairman. I want to thank our witnesses for 
being here today. As I have said many times to our witnesses, 
you make it possible for us to be informed so that we can 
appropriately uplift the lives of all Americans and people 
around the world. Thank you.
    Mr. Mica. Thank the gentleman. I would like to recognize 
another member of our panel who has joined us, Ms. Ros-Lehtinen 
from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I want 
to congratulate our other Florida colleague, Congressman Dan 
Miller, for the leadership he has shown on this outrageous 
case. It has not only galvanized the community he so proudly 
represents in Sarasota, but has touched the hearts and the 
conscience of all Floridians; and it should for all the 
citizens in the United States who hear about this outrageous 
act and the efforts the United States has undertaken to bring 
this devil to justice.
    It is incredible that, in spite of all our best efforts, no 
progress has really been made on the case. I also want to point 
out the great work that our colleague Kevin Brady has done on 
the issue of extradition in general.
    Through Congressman Brady's efforts, he was able to pass in 
the State Department authorization a bill, an amendment, to our 
committee that says the State Department must give us a full 
report of the status of all extradition cases. What are the 
obstacles? What are the countries' cooperation levels? He will 
be filing a separate bill on this that has the support of both 
chairman Gilman of the International Relations Committee and 
Chairman Hyde of the Judiciary Committee. So we will either 
pass it as a stand-alone bill or through the State Department 
authorization bill.
    I know in our community not only are we outraged about the 
Jose Luis Del Toro case but also about the growing number of 
fugitives who have sought refuge in Cuba, 80 fugitives and 
counting. There is no extradition that will be forthcoming 
through Fidel Castro. But it seems that in countries where we 
do have friendly relations--and Mexico is one of those 
countries--that in spite all of the trade agreements we have 
signed with Mexico, we have not been successful in mandating 
that cooperation and extradition cases be part of those deals.
    So I congratulate all of the Members who have been working 
so hard on this and many other cases of extradition. 
Congressman Franks of New Jersey has also been very 
instrumental in trying to call attention to a New Jersey case 
that has not been resolved in the correct way either. So I 
congratulate Congressman Miller and Congressman Brady for their 
leadership. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady. We've already had an 
introduction of a gentleman who's not a member of our panel, 
but we're pleased to have him join us today and make an opening 
statement at our hearing. Mr. Brady, the gentleman from Texas, 
you're recognized sir.
    Mr. Brady. Thank you, Mr. Chairman. First, thank you very 
much for shining a light, a very bright light on a very 
terrible situation, one that many citizens are not aware of but 
one that goes to the heart of justice here in America. Thank 
you for being a leader on this issue. Representative Ileana 
Ros-Lehtinen, who is also on the International Relations 
Committee, has been a strong supporter of our efforts to make 
changes and update our extradition laws, for which I am 
grateful.
    And Mr. Bellush, I am sorry that you must be here today. I 
truly appreciate you helping us try to resolve this, not just 
for your own sake, but for a lot of people whose names we don't 
know and whose faces we'll never see. People who will find 
themselves in a similar situation and will need that justice; 
you are going to help us create that for those families. While 
I have not met you personally, I had the opportunity earlier 
this year in Mexico to plead your case, at the request of Mr. 
Miller, directly to the attorney general's office in Mexico. To 
talk about how strongly we want the extradition to occur and 
how much we want justice in Florida.
    You have a very good person fighting hard for you sitting 
next to you, and I appreciate Mr. Miller's leadership. You 
know, I wish I could say you were the exception rather than the 
rule, but you're not.
    If we look at ``Spooky'' Davis Alvarez, the serial killer 
who fled California for Mexico; Charles Ng who raped and 
tortured young people in a cabin in California who fled justice 
for 11 years in Canada; Samuel Sheinbein who fled to Israel; 
Ira Einhorn who brutally killed a young Texas girl, stuffed her 
in a trunk and then left the country and today is still, 
despite heroic attempts by the State of Pennsylvania, free in 
the south of France. It goes on and on, these cases.
    A hundred years ago, criminals would flee to the county 
line or the State line to escape justice. Now, they flee the 
country and the continent. It's up to us to update our laws to 
make sure we close these safe havens for criminals because they 
are trying to escape American justice by seeking safe harbor. I 
think it's time, just as countries have updated their human 
rights laws, their trade laws, the environmental laws, it's 
time for the international community to update their 
extradition laws.
    Here in America, with half of our extradition treaties 
predating World War II, you can tell why criminals that are 
smart enough, and their attorneys, find those loopholes. It's 
our responsibility to close them. I think America has a 
responsibility to lead the international community in closing 
these safe havens. Congress, through this hearing and through 
legislation, is going to send a strong signal to the world that 
we are serious about closing these safe havens. Working with 
the State Department and the Justice Department together, we 
have responsibility to close these safe havens. I appreciate 
you being here and your leadership.
    Mr. Chairman, thank you.
    Mr. Mica. I thank you for your statement and your 
participation and leadership on this issue.
    Now, I would like to turn to our first panel. Our first 
panel, by way of introduction, the Honorable Dan Miller, a 
Member of Congress representing Florida's 13th District; and 
Mr. James Bellush, husband of Sheila Bellush. Gentlemen, Mr. 
Miller, our panel is an investigations and oversight 
subcommittee of Congress. We do not swear in Members of 
Congress, but you are a witness, sir. And we are going to swear 
you in. If you would stand, sir, and raise your right hand.
    [Witness sworn]
    Mr. Mica. Thank you. The witness answered in the 
affirmative. Welcome, Mr. Miller and Mr. Bellush. Mr. Miller, 
you're recognized.

STATEMENT OF HON. DAN MILLER, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Miller. Thank you, Mr. Chairman. Let me first thank you 
very much for holding this hearing and the members of the 
committee and the staff that made it possible.
    This Del Toro case shocked our community 19 months ago. The 
community continues to grieve for the Bellush family and for 
the fact that we can't bring this case to a close. It is one of 
the most frustrating things I have ever had to deal with. And 
for someone who has never had to deal with the criminal justice 
system before, I have learned a great deal. It's so 
frustrating, you don't know where to turn.
    There was great police work on this case. Mr. Del Toro 
drove from San Antonio to Sarasota and committed the murder as 
accused and then drove back to San Antonio. The local, State, 
Federal, and international law enforcement officials acted very 
quickly. This was a murder-for-hire case, a conspiracy with 
several other people involved. They quickly identified those 
people and arrested them. Mr. Del Toro was arrested in Mexico 
in November 1997. We are pleased he was apprehended but the 
frustration is our inability to bring this gentleman to trial.
    I first became involved in this case when Earl Moreland, 
who is our State Attorney, contacted me to help bring Del Toto 
back to the United States. We didn't think there was going to 
be a big deal because it should have been a clear-cut case. We 
quickly discovered the complexity and really the helplessness 
of this situation. The anger and frustration that we all share 
has just outraged our entire community of Sarasota, especially 
since they followed it so closely.
    The extradition treaty that has been referred to in this 
case was the United States-Mexico Treaty of 1978. It gives 
Mexico the right to refuse extradition in cases where the death 
penalty may potentially be applied. If there was ever a case 
where the death penalty would be considered, it would be when a 
person drives from San Antonio to Sarasota with the intent to 
brutally murder a young mother of six children.
    But this case is not just a case for Florida. Mexico shares 
a very large border with the United States. As we began to 
research the case, we came across other cases. Two months 
before the Bellush murder, there was David ``Spooky'' Alvarez 
who murdered his girlfriend and three other members of her 
family in California.
    The district attorney there is Gil Garcetti. Mr. Garcetti 
decided he was not going to waive the death penalty. He said, 
``To allow a vicious killer to avoid the most severe punishment 
for these murders by merely crossing the border into Mexico 
would encourage other murderers to seek refuge there.''
    That's the frustration law enforcement has in making those 
decisions. I know Mr. Moreland, and I know it was not an easy 
decision for him to make either. But we want to bring Mr. Del 
Toro to serve justice--justice delayed, they say, is justice 
denied. To allow this escape from our justice system by 
crossing the border into Mexico, is an escape that we need to 
find a way to block, to stop.
    Last year, as Mr. Gilman pointed out, his committee 
approved--and Mr. Brady was helpful as were other Members and 
it was supported on the floor of the House--a resolution that 
we renegotiate that treaty with Mexico.
    Much to my dismay, the administration is in opposition to 
that, and I hope we'll hear this morning from the State 
Department why they're opposed to the renegotiation of that 
part of the extradition treaty.
    As I said, we share a large border with Mexico, and there 
are millions of people living along that border. It is so easy 
to cross over. But we also have these problems with other 
countries. We also share a large border with Canada, but Canada 
is much more agreeable in their handling of some of these 
cases. For example, the case you mentioned, Mr. Charles Ng, a 
convicted serial killer, was brought back without assurances of 
the death penalty. Canada is moving in a more cooperative 
attitude on this issue than Mexico appears to be.
    Mexico said they had no choice but to extradite. Well, he 
should have been deported. We were expecting his deportation 
days after he was arrested, and then at the last minute they 
decided to go through the extradition process. But Mexico has 
the ability to deport.
    In December of this past year, James Edward Tillis was 
accused of killing two people in Arkansas, crossed over to 
Mexico; and was arrested and deported within the next day or 
so.
    This is one case and there are many more. Our concern is to 
get Mr. Del Toro back and the second part of our concern is to 
prevent future Del Toro cases. We need to close this loophole 
and make justice a priority. I mean, what would have happened 
if Timothy McVeigh had crossed into Mexico? Would we still be 
waiting for Timothy McVeigh to stand trial?
    I hope this is an important step in getting justice served 
in this country, and I thank you once again for having this 
hearing, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Miller.
    [The prepared statement of Hon. Dan Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T3595.001
    
    [GRAPHIC] [TIFF OMITTED] T3595.002
    
    [GRAPHIC] [TIFF OMITTED] T3595.003
    
    Mr. Mica. Did you want to introduce Mr. Bellush?
    Mr. Miller. With me today is a very brave individual who 
has suffered the most in this case because it was his wife, 
Sheila Bellush, who was murdered on that morning of November 
1997. He was actually a short-term resident of Sarasota. He 
moved from San Antonio and now has gone back home with his 
parents so they can help to raise his six children. As you 
know, he's a father of children that were 2-year-old 
quadruplets at that time and he feels so strongly about 
bringing this to conclusion that he is willing to testify 
today.
    I personally would have a very difficult time doing what 
Jamie is doing today. So I'm glad that he's able to be with us 
today to personalize the concern, the suffering that he has 
experienced, and why we need to make these changes.
    Mr. Mica. Mr. Bellush you're recognized.

     STATEMENT OF JAMES BELLUSH, HUSBAND OF SHEILA BELLUSH

    Mr. Bellush. Thank you, Mr. Miller. Mr. Chairman, members 
of the committee, I want to thank you today from the bottom of 
my heart for giving me the opportunity to come before you today 
and express the frustration and pain my family and I continue 
to experience from the Mexican Government's delay in the 
extradition of the suspected murderer of my wife, Jose Luis Del 
Toro, Jr.
    My name is Jamie Bellush, and 19 months ago I moved back to 
northwest New Jersey into the home where I grew up. I'm a 
widowed father of five including 3\1/2\-year-old quadruplets. 
Yes, you heard me. That's three boys and one girl; you can see 
their picture over there on the monitor. That's a current 
picture. And a 15-year-old daughter. For the past 10 years, I 
have been a pharmaceutical representative with Pfizer Inc., 
working in Florida, Texas, and New Jersey.
    I'm a decorated former Marine Corps officer who served with 
the 2nd Marine Division in Saudi Arabia and Kuwait as a 
reservist during Operation Desert Storm.
    On November 7, 1997, my wife was at our home in Sarasota, 
FL, with our then 23-month-old quadruplets, Timmy, Joey, 
Frankie, and Courtney. I left for my job at about 7:30 a.m. 
Sheila had dropped off my daughter Stevie at school and I'm 
sure stopped at McDonald's to get breakfast for the 
quadruplets.
    At approximately 10 a.m., Jose Luis Del Toro, Jr., entered 
our home through the garage. He confronted Sheila in the 
laundry room of our home. He aimed a .45 caliber pistol at her 
face and fired a single bullet. The bullet entered her cheek 
and exited out the back of her neck. I don't know how familiar 
you are with handguns, but the .45 caliber handgun is probably 
the most powerful handgun in the world.
    The concussion and shock of the bullet dropped her to her 
knees. The pathologist found bruises on her knees. She was 
still alive, though, and despite unimaginable pain, struggled 
to make it to the phone, I'm sure to call 911.
    Not wanting this to happen, Jose Del Toro opened one drawer 
in the kitchen and then another. He found a sharp knife with 
approximately an 8-inch blade. He used the knife to slice 
Sheila's throat first on one side and then the other. At one 
point while she struggled to ward off Del Toro; he stabbed her 
right through her hand. Losing blood, she fell to the floor in 
the kitchen. She was only 5 foot 3 in stature and a mere 107 
pounds, no match for her attacker, a muscular, agile former 
high school football player.
    You can only imagine the sight as she lay on the floor of 
the kitchen taking in her last gasps of air through the pools 
of her own blood. Imagine the confusion and horror of Courtney, 
Timmy, Joey, and Frankie wondering why Mommy can't get up. At 
about 4 p.m. that afternoon, my stepdaughter Stevie got off the 
bus. Her mother was her hero and best friend. She would share 
all of her school girl crushes with her mom. And on that day, 
she was especially excited because a cute new guy had asked her 
out.
    She bounded into the front door of the house never 
suspecting what she was about to find. She saw her quadruplet 
baby brothers and sister huddled together crying without 
diapers on and I'm sure starving for not having been fed since 
the morning. She then looked into the red-stained kitchen to 
see her mother's bloody body, a horrific scene that will be 
branded on her memory for eternity.
    At this time, Mr. Del Toro was well on his way back to San 
Antonio, TX. Del Toro, as you may know, was a trigger man in an 
elaborate murder-for-hire conspiracy. Mr. Del Toro thought he 
had gotten away. But in his mission to destroy the life of my 
beloved wife, he left in his wake a cesspool of evidence. This 
evidence includes, but is not certainly limited to, an eye 
witness seeing a man matching his description walking through 
the neighborhood; a lawn maintenance man who copied down the 
license plate number of the car in which Del Toro was the only 
driver; a perfect fingerprint on the dryer of our home that 
matched De Toro's; a copy of the Texas driver's license of Del 
Toro, who had checked into the Hampton Inn in Sarasota, FL.
    After driving back to Austin, TX, Del Toro changed out of 
his clothes at his friend's house. The police later collected 
the clothing he was wearing at the time of the murder, 
spattered with Sheila's blood. He left his car in Austin, which 
was later recovered by police. In the car they found the gun 
used to murder Sheila, a hotel room key, and towel from the 
Hampton Inn in Sarasota as well as the address to our home in 
Sarasota.
    But the best evidence of all, Del Toro's own cousin, Sammy 
Gonzalez who himself was involved in the conspiracy, has pled 
guilty to solicitation of capital murder and agreed to testify 
against his own cousin and his involvement in the crime.
    So why are we here today? And why isn't Del Toro sitting on 
death row in a Florida prison? And why has my family been 
subjected to continued anguish and been denied justice? Because 
Mr. Del Toro, who is an American citizen, and who murdered 
another American citizen on American soil, crossed the border 
into Mexico.
    The Mexican Government has decided to interfere with the 
American justice system and allowed Del Toro to appeal his 
extradition all the way to the Mexican supreme court and harbor 
this criminal in a Mexican jail. This is not an isolated 
incident, as you're well aware. Mexico has time and time again 
delayed the extradition of wanted violent criminals.
    It would have been simple, legal, and reasonable for the 
Mexican Government to simply deport Del Toro and turn him over 
to Texas Rangers. And when was Del Toro arrested? On November 
20, 1997, the day we buried Sheila on a cold, windy hillside in 
New Jersey.
    So here we are 19 months later, and the Mexican Government 
still cannot even give us a broad estimate of when he will be 
returned to the United States to stand trial. As another 
infringement to our national sovereignty, the Mexican 
Government has forced the State of Florida to agree not to 
impose the death penalty when Del Toro is convicted. So Mr. Del 
Toro will spend the rest of his life in prison for 
slaughtering, no, butchering my wife in cold blood in front of 
our children.
    Let me briefly touch on who Sheila was. Sheila's father, 
Francis Anthony Walsh, Jr.'s name is listed on a black granite 
wall near the Lincoln Memorial. Yes, when she was 10, his plane 
was shot down over Laos. She was a wonderful, warm woman who 
had Jesus Christ in her heart. Everyone who ever met her loved 
her. She was a devoted mother. She was bright and funny. She 
was one of the most beautiful women I have ever met. And it was 
an honor and a privilege to have been her husband.
    She was my biggest fan and I hers. She was my support. She 
was the only mother my children will ever have. I loved her 
very much, and to this day there is a hole in my heart. Not 10 
minutes go by without me thinking of her. I grieved at first 
because I lost my beloved wife who had so much life left to 
live. Now I grief because I will not have Sheila--I'm sorry. I 
then grieved because our children--for my children because they 
no longer had a mother. Now I grieve because I will not have 
Sheila to share those special memories and prideful moments as 
our children grow up, the graduations, the recitals, the little 
league games, and the rest.
    Mr. Chairman and members of the committee, please do not 
allow Sheila to die in vain.
    Please change the extradition treaty with Mexico and 
prevent the delay of justice and the pain for other victims of 
crime whose perpetrators run to Mexico. Please decertify and 
withhold financial aid from Mexico and other countries that do 
not cooperate and interfere with our criminal justice system. 
It is time we stop playing patsy politics with Mexico.
    I just want to thank a couple of people. I want to thank 
Mr. Moreland, Mr. Roberts, and the rest of the State 
prosecutor's office in Sarasota, the county district attorneys, 
the Sarasota County sheriff's, and the Texas rangers who have 
done a phenomenal job in this case.
    I want to thank Mr. Dan Miller from Florida and you, Mr. 
Chairman, for the courage to stand and voice outrage at the 
delay of the Mexican Government in extraditing Jose Luis Del 
Toro. Additionally, I want to thank Mr. Gilman for moving House 
Resolution 381 through the International Relations Committee to 
a full House vote on the floor.
    And last, I want to thank Senator Bob Torricelli who has 
done more for me than just writing letters and making phone 
calls, but became a fervent advocate for one of his 
constituents and getting personally involved in helping me and 
my family.
    And finally, I want to leave you with an image. And that's 
why we don't keep helium balloons in our house for long. I tell 
Timmy, Joey, Frankie, and Courtney that Mommy is in Heaven with 
Jesus. They ask me if she's still bleeding. Yes, they remember 
what they saw. They walk outside and they let their helium 
balloons go. We asked them why they do this. And they tell me 
they're sending them up to Mommy in heaven. Thank you.
    [The prepared statement of Mr. Bellush follows:]
    [GRAPHIC] [TIFF OMITTED] T3595.004
    
    [GRAPHIC] [TIFF OMITTED] T3595.005
    
    [GRAPHIC] [TIFF OMITTED] T3595.006
    
    Mr. Mica. Mr. Bellush, you have to be one of the most 
compelling witnesses I think I've ever heard in my short 
tenure, 7 years in Congress. I'm sure the other members of the 
panel join me in commending you for your courage in coming 
forward. I know it has to be difficult. If there is any sense 
to be made out of the whole horror of all of this, hopefully 
your testimony and your statement today will get people's 
attention.
    Sometimes it takes incredible tragedy in our country to get 
the people's attention to what needs to be done and what's 
right. So again, I just--you're one of the most courageous men 
I have ever met. I thank you.
    I thank Mr. Miller, too, for bringing this to our 
attention. He's represented you very well, been an untiring 
advocate, brought this before the House and Mr. Brady and 
others. I'm just a small bit-player in the congressional 
process in taking over the responsibility of drug policy. I 
really am appalled that Mexico, as a neighbor and ally, could 
allow this injustice, not just in your case, but dozens and 
dozens of cases.
    I said in my opening statement we have 275 requests for 
extradition, some 40 major drug kingpins who have inflicted 
death and destruction on our young people and similar 
unbelievable stories. The hardest thing I have to do is talk to 
people like you and then to parents who have lost a young 
person to the horrors of Mexican heroin or cocaine that has 
come through our now open commercial borders.
    Sir, I heard in your testimony, you said we should use 
whatever tools we have at our disposal including 
decertification. We do provide Mexico with very substantial 
trade benefits; NAFTA has given them great advantages and an 
open commercial border. We bailed out Mexico when they were at 
their financial wits' end.
    You feel that, again, we should use whatever means possible 
to get some attention to this extradition item. Is that 
correct?
    Mr. Bellush. Yes, sir, it is.
    Mr. Mica. In your struggle----
    Mr. Bellush. If I could just say one other thing.
    Mr. Mica. Yes, go ahead.
    Mr. Bellush. I'm continually appalled at how our government 
continues to sit back and hand out money to foreign governments 
when they have absolute disregard and contempt for our criminal 
procedure and our laws.
    You look at the case--I mean, I'm fervently pro-Israeli, 
but I'm appalled that the Israeli Government has failed to 
extradite--I can't recall the gentleman's name right now--but 
Sheinbein, this man, he mutilated somebody. And Mr. Mica, I 
don't understand. I mean, I know I'm just a private citizen, 
but it just blows me away that we just stand there and let 
people trample all over our judicial system and still hand out 
the money.
    Mr. Mica. Not only stand there, but at great benefit--trade 
and finance benefits. We get very little respect in return. In 
fact, I consider this an affront to the American people.
    In your quest for justice, can you tell me about your 
cooperation from our State Department in this matter?
    Mr. Bellush. Sir, I've had absolutely no contact with the 
State Department at all. All my contact with--I have spoken to 
someone in the Justice Department a couple of times, but most 
of my contact has come through Mr. Miller's office or Senator 
Torricelli's office. Quite frankly, that's sort of sad when you 
think about it that--I mean, Charlie Roberts' office down in 
Sarasota, the State prosecutor's office, has continual 
communications with the victims.
    I've got no communications from the State Department or the 
Justice Department on a regular basis. And quite frankly, that 
should--those should happen. I shouldn't have to go to Mr. 
Torricelli and Mr. Miller or Ms. Roukema, who is my local 
representative in New Jersey, to find out what the status of 
the extradition is.
    Mr. Mica. You don't feel that in your particular case in 
trying to pursue this extradition that either State nor Justice 
has been responsive?
    Mr. Bellush. Yes, sir. And I don't know exactly what goes 
on. I'm sure there are wonderful people that work in those 
departments but there has been very little communication. There 
have been a couple of times I spoke to somebody at the Justice 
Department and no communications with the State Department at 
all.
    Mr. Mica. Thank you. I will yield at this time to the 
gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you, Mr. Miller, for your efforts. I think this is very, 
very important. And I appreciate it. And to you, Mr. Bellush, I 
want to thank you. I can only echo the words of our chairman, 
you have a lot more courage than I do. I think it would be very 
difficult for me to do what you just did. And I do appreciate 
it.
    One of the things, I'm glad you raised the issue of the 
Sheinbein case because that comes out of my State. And I agree 
with you. I think this country needs to take another look at 
what we do with regard to these types of issues. The chairman 
said he's just a small player--and I guess to a degree we all 
are small players here--but we also represent, this Congress 
does, some 270 million people. And certainly, we represent you.
    I think whenever we have a policy that allows anyone to 
escape the laws of this country when they commit crimes in this 
country, no matter what they are, I think we have a major, 
major problem. So I just want you to know that we will do 
everything in our power, working with your Congressman and 
others, to try to make sure we do not let your wife die in 
vain.
    The role that you played here this morning, is more 
important than you may ever know, because so often I think what 
happens in the Congress is that we fail to put a face on the 
policies and put feelings on the policies and see behind them. 
You have given us that opportunity to peer in a window of your 
house, on a very painful day.
    So I really don't have any questions of you. I'm just 
curious as to the next panel, what they will have to say. I am 
so interested to hear this. I just thank you very much.
    Mr. Bellush. Thank you, Mr. Cummings.
    Mr. Mica. Mr. Miller, a quick question. You were 
responsible for introducing House Resolution 381, in which you 
recommended the President of the United States should 
renegotiate the current extradition treaty with Mexico. Were 
you given any explanation from the administration about its 
opposition to this resolution? Maybe you would like to comment 
about your efforts in trying to pass this resolution.
    Mr. Miller. Thank you, Mr. Chairman. First of all, I would 
like to submit a prepared statement for the record.
    Mr. Mica. Without objection the entire statement will be 
made part of the record.
    Mr. Miller. Yes. It was last fall, in October, that House 
Resolution 381 was passed by voice vote on the floor of the 
House to ask for renegotiation of the extradition treaty. The 
administration, and specifically the State Department, said 
they were basically opposed, and we'll hear in the next panel 
more details of that. They say it is because the death penalty 
is the objection.
    However, Mexico apparently may not recognize the life 
sentence either. There is a case of a drug dealer that Mexico 
refused to extradite because they don't support life sentences. 
So I don't know where we can draw the line. Especially when you 
have U.S. citizens accused of a crime in the United States. 
Mexico should have nothing to do with the case. That's true 
whether it's in Israel or Canada. That's certainly true in the 
United States. If we have a Mexican citizen in the United 
States, that person should be sent back as fast as possible.
    It's one of the many frustrations in this case, and that's 
the reason, 19 months later, we're still waiting for a person 
to stand trial in Sarasota.
    Mr. Mica. Thank you. I would like to yield now, if I may, 
to the gentleman from Texas for questions, Mr. Brady.
    Mr. Brady. Thank you, Chairman Mica.
    You've served your country in peacetime and war as a U.S. 
Marine. The Marines are known for taking on the toughest 
assignments, doing the hardest jobs. You were called upon by 
the United States Government to do everything possible to 
liberate Kuwait, and you served with the 2nd Marine Division.
    It's one thing to demand that Mexico deport this United 
States citizen--and I'm from Texas. And this Jose Del Toro is a 
Texan, an American citizen. He doesn't deserve any protection 
from Mexico on this issue. But there's also the question, are 
we doing all that we can to help you see justice in this case? 
And from your perspective do you feel that everything humanly 
possible has been done by the U.S. Government to return Jose 
Del Toro to America for justice?
    Mr. Bellush. Mr. Brady, no, sir. I don't think it has been. 
I hate to think that, but I think my wife's murder deserves the 
attention of Mr. Clinton. I know he has taken trips down to 
Mexico and I just--I can't believe that this isn't a priority, 
to address this issue of extradition.
    The other area where I think there's significant room for 
improvement, not--aside from renegotiating the extradition 
treaty, are the communications channels from the State and 
Justice Departments.
    Mr. Brady. Tell me about that.
    Mr. Bellush. As I stated earlier, I think there must be 
some way that the State and or Justice Departments could 
communicate on a more regular basis with victims to tell them 
what the status of extradition is. Even if somebody drops a 
letter in the mail to me every month and said, ``Mr. Bellush, 
we're sorry to tell you there's no further progress in the 
case.'' That would be appreciated.
    As I stated earlier, anytime there's any development in a 
criminal matter in the State of Florida, I get a letter from 
the Florida State attorney's office trial dates, hearing dates, 
those kind of things. As a victim, I think you deserve to know 
these things. And I certainly think that with an international 
issue like extradition you should certainly know about these 
things.
    Mr. Brady. How often do you talk to the State Department? 
How often do they contact you?
    Mr. Bellush. I have never spoken to anybody in the State 
Department. I believe I spoke to somebody in the Justice 
Department once or twice. But all those phone calls were 
originated from me. They weren't phone calls made to you or 
communication made to me. They were all phone calls that were 
originated by me. Again, I'm not here to bash the State or 
Justice Departments, but certainly this is an area where we 
need improvement.
    Mr. Brady. I appreciate that. Thank you, Mr. Chairman.
    Mr. Mica. I want to thank you, Mr. Bellush. As I said, you 
have been an incredible witness. We salute you for serving your 
country. Today, you serve very well the memory of your wife, 
and you've also served this country, I think, and your children 
with your testimony today. Because it is so important that we 
bring this killer to justice and that we, as representatives of 
you and the American people, see that extradition is carried 
through and that there is justice and particularly in this 
case, international justice.
    I have no further questions at this point for you or Mr. 
Miller. There is a vote in progress, so we're going to excuse 
you. Again, from the bottom of my heart, I thank you for your 
courage in coming forward and for what you've done today to 
shed light on this important issue. I know that your being here 
is going to make a big difference. So I thank you, sir. And 
thank you, Mr. Miller.
    I'll excuse both of our witnesses. We will recess for 15 
minutes. And reconvene at 11:15, after this vote. At that time, 
we'll hear from our second panel. This meeting stands in 
recess.
    [Recess.]
    Mr. Mica. I would like to call this meeting of the 
subcommittee back to order. Our order of business is to hear 
from the second panel on the topic ``Is Mexico a Safe Haven for 
Murderers?'' and in particular today, we're looking at the Del 
Toro case.
    The second panel consists of Mr. Earl Moreland, district 
attorney from Sarasota, FL. I believe he's also accompanied by 
Mr. Charlie Roberts, assistant State attorney, who will be 
available for questions. Our second panelist is Ms. Mary Lee 
Warren, Deputy Assistant Attorney General with the Department 
of Justice. Our fourth witness is Ms. Jamison S. Borek, Deputy 
Legal Advisor to the Department of State.
    As I explained to our earlier panelists, this is an 
investigations and oversight subcommittee of Congress. So if 
you would stand, please, and be sworn.
    [Witnesses sworn.]
    Mr. Mica. Witnesses answered in the affirmative. We ask 
that you limit your opening statement to 5 minutes, your oral 
presentation before the subcommittee. If you have lengthy 
statements or additional information you would like submitted 
for the record, we will do that by unanimous consent request.
    With those comments, I would like to recognize first Ms. 
Jamison S. Borek, Deputy Legal Advisor to the Department of 
State. You're recognized.

     STATEMENTS OF JAMISON S. BOREK, DEPUTY LEGAL ADVISOR, 
DEPARTMENT OF STATE; MARY LEE WARREN, DEPUTY ASSISTANT ATTORNEY 
  GENERAL, DEPARTMENT OF JUSTICE; AND EARL MORELAND, DISTRICT 
    ATTORNEY, SARASOTA, FL, ACCOMPANIED BY CHARLIE ROBERTS, 
                    ASSISTANT STATE ATTORNEY

    Ms. Borek. Thank you, Mr. Chairman, and members of the 
committee for this opportunity to testify before you today. I 
will give a little overview of the extradition relationship 
with Mexico, and I understand that the other witnesses will 
speak more specifically about the Del Toro case.
    As you have noted, the extradition relationship with Mexico 
is based on our fairly modern 1980 treaty, which replaced a 
badly outdated bilateral treaty that had been in force since 
1899.
    There are a number of issues in the extradition 
relationship which have been noted so far in this hearing. One 
of them is certainly the question of the extradition of 
nationals. The treaty provides, as do a number of treaties, 
that the extradition of nationals is discretionary. Many 
countries are prohibited by their constitution or other 
domestic law or as a matter of policy do not extradite their 
own nationals. This includes a number of countries in Europe 
such as France, Germany, Austria, and Belgium, as well as many 
in this hemisphere, such as Brazil, Ecuador, Panama, and 
Venezuela.
    The U.S. Government does not consider it appropriate, for 
the reasons that have been noted in this hearing, to create a 
situation in which nationals can never be extradited for 
prosecution in the United States or in any other country. And 
it has been a very high priority to try to convince all 
countries to agree to extradite their nationals.
    This is a particular problem, I might note, with civil law 
countries. Common law countries, which share a comparable legal 
tradition with the United States, do tend to extradite 
nationals. It is the civil law countries, the countries with 
European based or Spanish based legal systems, which tend not 
to do so.
    They also tend to have laws that permit them to prosecute 
their own nationals for crimes committed anywhere in the world. 
And so, historically, the view has been ``we will prosecute 
them here rather than in other countries.'' There are a number 
of problems with this and as I say, it's been a strong policy 
of the Justice and State Departments and the U.S. Government as 
a whole to try to negotiate treaties that provide for 
extradition of nationals on a mandatory basis in all cases.
    We have made some notable advances in the hemisphere, for 
example, in recent treaties with Bolivia and Argentina; but it 
is still obviously an issue that we're grappling with.
    Turning specifically to Mexico, as I noted, it is 
discretionary in the treaty whether or not to extradite 
nationals; and for many years the Government of Mexico did not 
extradite nationals at all, citing limitations under domestic 
law. In 1996, there was a breakthrough of sorts in that the 
Government of Mexico determined that they could apply language 
in domestic extradition law to extradite nationals in 
exceptional cases.
    Since then, they have been extraditing a number of 
nationals, not by any means at all. There are still, in many 
cases, a decision to prosecute domestically. And there have 
been difficulties with challenges in courts in Mexico 
concerning the extradition of nationals.
    There have been problems, in particular over the last--
basically, since late last year, with the interpretation of 
article 4 of the Mexican Penal Code. A number of court 
decisions in which the courts ruled that because it was 
possible to prosecute the nationals in Mexico, it was necessary 
to prosecute them and they could not be extradited.
    The Government of Mexico has been working with us very 
closely in an effort to litigate this issue successfully in 
courts, to take the question to the Supreme Court of Mexico 
where hopefully there would be a reversal of this decision. So 
far, however, this is still in process. There has to be a split 
of decisions in order for the supreme court to take the case, 
and they are looking for the split of decisions to be able to 
do so.
    Another issue which is particularly relevant to the Del 
Toro case is the question of the amparo process. The amparo 
process is essentially a constitutional bill of rights-type 
equivalent in the Mexican legal system, whereby individual 
citizens can challenge the constitutionality of an action of 
the government as applied to them.
    I have to note that in general, the U.S. Government wants 
American citizens to benefit from legal guarantees in foreign 
countries. As a general principle, we believe Americans should 
enjoy equal rights and equal treatment in foreign courts and in 
foreign criminal justice systems. So there is no objection in 
principle to American citizens being able to take advantage of 
this remedy; however, there are problems with the remedy 
itself.
    The difficulty is that, unlike the United States system 
where you must raise problems at certain times, you can only 
raise them so often, and if you fail to raise them you are 
precluded from raising them, in Mexico you can bring an amparo 
challenge at many different points in time in different courts 
and over and over again. And therefore there is a much more 
undisciplined and lengthy delaying process than the comparable 
process in the United States.
    Nonetheless, the amparo is widely regarded in Mexico as one 
of the sort of constitutional bulwarks of their rights and 
guarantees. Although they recognize there are certainly abuses, 
there's also a strong feeling, a sort of popular feeling, as I 
understand it, in favor of the process.
    Another area of concern which has been mentioned is life 
imprisonment. This is not something which is provided for in 
the treaty, and it is not something which the Government of 
Mexico itself has created problems with. But there have been a 
number of court decisions holding that for constitutional 
reasons, life imprisonment is cruel and unusual punishment. I 
think the terminology is a little different--it's ``cruel and 
extreme.'' And that someone could not be extradited to face 
life imprisonment.
    The Government of Mexico is again litigating these cases. 
It's too soon, I think, to say how the litigation is going. 
These are fairly recent developments, and they are still being 
litigated.
    Finally, there is also the problem of the death penalty. I 
have to say, this is a different sort of problem in a way than 
the nationality problem and in some ways a larger problem.
    As I noted, there are a number of countries which have a 
practice of not extraditing without assurances that the death 
penalty will not be imposed. This includes a number of 
countries in Europe and other parts of the world. This 
reflects, from their point of view, a human rights concern. I 
think you must be aware there are a number of countries which 
do not believe in the death penalty. There are a lot of 
extradition treaties in which the other party has insisted that 
in death penalty cases extradition be discretionary and they 
have asked for assurances in practice.
    We are very much against this and certainly we have spent a 
lot of time defending the death penalty, not only in the 
extradition context but also in the human rights context. For 
example, in the Human Rights Commission where there are 
regularly resolutions against the death penalty, it is a 
different kind of problem and one that we were struggling with 
without, perhaps, some of the prospects of progress that we 
have seen in the nationality area.
    Thus, as I say, these are problems which, to a certain 
extent, are not unique; however, with Mexico there is a special 
relationship geographically. Because of the possibility of 
people going back and forth across the border, obviously the 
impact of these problems is very severe, and the concern that 
we have about them is equally very severe. The extradition 
relationship has been, for a very long time, at the top of our 
United States-Mexico bilateral agenda, as has law enforcement 
generally.
    I think it's fair to say that with the development of these 
additional problems, particularly in recent years, there is an 
even more intensified awareness and commitment to grappling 
with these issues in the U.S. Government at the State 
Department and I think I can say also the Department of 
Justice. I thank you, Mr. Chairman. I ask that the full 
statement be accepted for the record.
    Mr. Mica. Without objection the full statement will be made 
part of the record. We'll withhold questions until we've heard 
from the other witnesses in this panel.
    [The prepared statement of Ms. Borek follows:]
    [GRAPHIC] [TIFF OMITTED] T3595.007
    
    [GRAPHIC] [TIFF OMITTED] T3595.008
    
    [GRAPHIC] [TIFF OMITTED] T3595.009
    
    [GRAPHIC] [TIFF OMITTED] T3595.010
    
    [GRAPHIC] [TIFF OMITTED] T3595.011
    
    [GRAPHIC] [TIFF OMITTED] T3595.012
    
    [GRAPHIC] [TIFF OMITTED] T3595.013
    
    [GRAPHIC] [TIFF OMITTED] T3595.014
    
    Mr. Mica. I recognize next Mary Lee Warren, Deputy 
Assistant Attorney General, the Department of Justice. Welcome.
    Ms. Warren. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before this subcommittee today to discuss 
with you the history and status of the Jose Luis Del Toro case 
and to provide you with continuing information about our 
overall extradition relationship with the Government of Mexico.
    In the second regard, I will offer an update on events that 
have transpired over the last month since my prior testimony 
before this subcommittee. I request that my full written 
statement be included in the record.
    Mr. Mica. Without objection so ordered.
    Ms. Warren. Clearly the case of Jose Luis Del Toro is a 
matter of extraordinary significance to all. Mr. Bellush has 
provided a moving personal account of the crime, its 
devastating impact, and the frustration that is felt with the 
process of bringing Del Toro back to Florida to face justice.
    We too at the Department of Justice have voiced our concern 
about the crime and the delay, and we offer our sympathies once 
more to the family who has suffered this horror. Today I will 
limit my testimony to a description of the actions taken by the 
two governments to effect his return to this country.
    In the 10-day period from November 11, 1997, 4 days after 
the murder, to November 21, 1997, first, the Florida 
authorities notified the Department of Justice that they 
believed Del Toro was in Mexico. Mexican officials and our 
Embassy were officially notified; the United States requested 
his deportation or, in the alternative, provisional arrest for 
extradition. The authorities located Del Toro in Monterrey, 
Mexico; and he was arrested for extradition pursuant to the 
treaty by the Mexican authorities.
    It has been asked why Del Toro, a United States citizen, 
was not simply and summarily deported from Mexico rather than 
being brought within the more lengthy and complicated 
extradition process. Clearly, the U.S. Government would have 
preferred the use of deportation mechanisms in this case. 
Indeed, our INS agents at our Embassy in Mexico City worked 
hard pursuing this course when they were first informed that 
Del Toro might very well be in Mexico.
    It appears, however, due to the extreme brutality of the 
crime charged, the threat posed by Del Toro to others, the real 
risk that he might succeed in his flight from justice, and the 
perceived difficulties in obtaining nearly immediate assurances 
that the fugitive would not receive the death penalty if 
surrendered to the United States, the office of the Mexican 
attorney general believed that the wiser, safer course of 
action was to obtain a provisional arrest warrant for 
extradition under the treaty so that they could guarantee their 
legal authority to arrest and detain Del Toro as soon as he 
could be found.
    In retrospect, all of us including the Mexican Government, 
wish that Del Toro had simply been deported; but during the 
fast-breaking events in late November 1997, the immediate and 
primary goal was to ensure that he did not get away. Both 
governments have now learned from this experience that when 
necessary and mutually acceptable, death penalty assurances can 
be provided promptly in deportation cases as they must be 
provided in extradition cases under the treaty.
    But in those last minutes in the hunt for Del Toro, 
arresting and holding him seemed far more important than the 
particular avenue for his return.
    Continuing with the chronology, by early January 1998, well 
within the limitations period, Florida authorities compiled an 
impressive package of proof which was then formally submitted 
to the Government of Mexico. By the end of March 1998, both the 
court that initially provides an opinion on extraditability and 
the foreign ministry had decided in favor of our request. This 
is a very speedy handling of the request.
    Immediately following the entry of the court, an Executive 
order authorizing extradition, Del Toro, using the Mexican 
amparo process, began his legal challenges to his surrender 
back to the United States. In the extradition context, the 
amparo process is something akin to habeas corpus, as Ms. Borek 
has mentioned.
    Our best understanding of the nature and status of Del 
Toro's amparo is that first he sought relief from two district 
courts challenging the constitutionality of our extradition 
treaty. His challenge was rejected by both district courts and 
thereafter found by the Mexican supreme court to be ineligible 
for immediate review.
    He then sought relief in the same two district courts 
challenging the legality of the Mexican Government's actions in 
complying with the treaty and holding him for extradition. 
Again, his challenge was rejected by those two district courts 
and found procedurally deficient by the supreme court. Del 
Toro's case as it relates to the legality of the extradition 
order issued by the foreign ministry in Mexico is now before an 
appellate or circuit court in Mexico.
    The ability of a fugitive like Del Toro to file claims on 
various issues in different district courts, neither of which 
was the original extradition court, is unlike anything we have 
in our common law tradition. It is painfully slow and from our 
perspective prone to corruptive influences.
    We need to appreciate, however, that the amparo process in 
Mexico, like the writ of habeas corpus in the United States is 
one that embodies a fundamental right, as Ms. Borek mentioned. 
There came a time in our recent history that the dilatory and 
practiced abuses of the habeas corpus writ by some defendants 
so delayed the progress of their cases and so clogged our 
courts that these abuses began to threaten the full and fair 
administration of justice to all--other defendants, the 
prosecution, and the public.
    Congress then enacted landmark habeas corpus reforms. In my 
humble opinion, Mexico's amparo process would be well served by 
taking analogous reforms.
    A final thought on the Del Toro case: it should be 
emphasized that we have prevailed in Mexico before the courts 
and in the foreign ministry at every turn. Lengthy as the 
process has been, Del Toro has lost at every effort.
    Let me give you a brief update on where we are in our 
fugitive and consultative relationship with Mexico. There have 
been no dramatic changes in our fugitive relationship since 
last month's hearing before the subcommittee.
    Nevertheless, we note that after 3\1/2\ years of fighting 
his extradition, William Brian Martin, a U.S. citizen accused 
of major narcotics offenses in the district of Arizona, was 
returned to the U.S. authorities. A second United States 
citizen was recently returned through the United States-Mexican 
prisoner transfer treaty process to the eastern district of 
Virginia on narcotics charges.
    In my May 13 testimony before this subcommittee, I detailed 
the recent trends of adverse decisions on extradition in the 
Mexican courts; and, as Ms. Borek mentioned, the Mexicans have 
been looking for a conflicting decision on the article 4 issue. 
They may very well have found one now that will create a split 
of decisions within the circuits that then will be resolved 
finally by the Mexican supreme court. We remain cautious but 
optimistic.
    As I testified last month, deportations had been the 
especially bright light last year for returning criminal 
fugitives, those criminal fugitives who were United States 
citizens and had violated Mexico's immigration laws. However, 
we must now advise in the area of deportation, just as with 
extraditions, we have been experiencing a noticeable decrease 
in the numbers of surrenders from Mexico, a situation we had 
not anticipated after last year's successes.
    On a more positive note, however, as has been made clear, 
it is important to advise this subcommittee of the actions that 
have been and will be pursued at the highest levels of both the 
United States and Mexican Governments to improve the bilateral 
fugitive relationship.
    Early this month, Attorney General Reno led the United 
States delegation of several Cabinet members, agency heads, and 
departmental representatives at the binational commission 
meetings in Mexico City and had an opportunity to meet with all 
the Mexican officials responsible for extradition, for article 
4 prosecutions, and for deportations.
    The fugitive and extradition issue was the primary topic 
for discussion at the meeting of the Legal Affairs and 
Antinarcotics Cooperation Working Group chaired by the Attorney 
General and ONDCP Director McCaffrey and was also the first 
agenda item for the meeting of the high-level contact group.
    Attorney General Reno addressed fugitive matters at length 
in her personal meetings with Mexican Attorney General Madrazo 
and Foreign Secretary Rosario Green. She stressed the need to 
continue progress on deportations with their interior 
secretary, Mr. Carrasco. And she voiced her concerns over the 
status of the fugitive relationship directly with President 
Zedillo in their brief meeting during the binational 
commission.
    As a result, there is some renewed attitude of cooperation 
at the highest levels of both governments to pursue immediate 
and intensive consultations to address these issues as 
efficiently and effectively as possible.
    We recognize that the members of this subcommittee have set 
as a priority and commitment that this administration press the 
Government of Mexico to take affirmative steps to eliminate the 
notion and reality of safe haven and impunity for many 
fugitives in Mexico.
    I can state once again that the improvement of the fugitive 
relationship with Mexico has been and remains one of the 
Attorney General's and the Justice Department's highest 
priorities and that we will use all resources and measures at 
our disposal to make progress and achieve the type of positive 
results that this subcommittee desires and that are deserved by 
the public we serve. I thank you.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Ms. Warren follows:]
    [GRAPHIC] [TIFF OMITTED] T3595.015
    
    [GRAPHIC] [TIFF OMITTED] T3595.016
    
    [GRAPHIC] [TIFF OMITTED] T3595.017
    
    [GRAPHIC] [TIFF OMITTED] T3595.018
    
    [GRAPHIC] [TIFF OMITTED] T3595.019
    
    [GRAPHIC] [TIFF OMITTED] T3595.020
    
    [GRAPHIC] [TIFF OMITTED] T3595.021
    
    [GRAPHIC] [TIFF OMITTED] T3595.022
    
    [GRAPHIC] [TIFF OMITTED] T3595.023
    
    [GRAPHIC] [TIFF OMITTED] T3595.024
    
    Mr. Mica. I would now like to recognize Mr. Earl Moreland, 
district attorney for Sarasota County, FL.
    Mr. Moreland. Mr. Chairman and members of the committee, 
thank you for the invitation to appear today. The murder of 
Sheila Bellush in Sarasota, FL, was one of the most heinous 
crimes ever committed in my jurisdiction. Tragically, the shock 
of this brutal crime has really been compounded over the last 
18 months by Mexico's refusal to turn over to us the man 
charged with the murder, despite our complete cooperation and 
agreement with every demand.
    Mr. Bellush told you many of the facts earlier. There are 
some pictures on the monitor to help you realize the impact 
this crime has had, not only on the Bellush family but on our 
community.
    Mr. Mica. Mr. Moreland, are you requesting that we put 
those up? They are pretty gruesome. Did you want those on the 
monitors?
    Mr. Moreland. I will leave that up to the subcommittee 
staff, who I gave those to.
    Mr. Mica. Well, we have them, but I want it to be your 
request.
    Mr. Moreland. Yes, we would request that.
    Mr. Mica. OK. We'll go ahead and put those up then.
    Do you have some concerns? Wait a second. It is OK?
    Mr. Bellush. I want them shown, sir.
    Mr. Mica. The husband wants them shown. So I didn't want to 
put those up unless I had----
    Mr. Moreland. I understand, sir.
    Mr. Mica [continuing]. A request from you and the consent 
of the victim's husband. All right. Thank you. You may proceed.
    [Slides.]
    Mr. Moreland. As Mr. Bellush has previously told the 
committee, Sheila was home with her 23-month-old quadruplets 
when she was shot in the face by an intruder. After he shot her 
and while Sheila was still alive, the intruder slit her throat 
on both sides of her neck. She bled to death. Her four children 
remained alone in her house for 6 hours until their 13-year-old 
sister arrived home from school and discovered her mother's 
body. The four babies were alone with their dead mother during 
this time, crawling in her blood.
    The Sarasota sheriff's deputy launched a superb and massive 
investigation that within days, as Congressman Miller has told 
you, identified Jose Luis Del Toro, Jr., as the killer. Also, 
as Mr. Bellush told you--and I think one of the things that 
makes this case even more frustrating--is the evidence was 
really overwhelming in this case. Witnesses had identified Del 
Toro and Del Toro's car in the area. A copy of his 
identification was recovered from a local motel. Other evidence 
included Del Toro's fingerprint at the scene and a fingerprint 
on the murder weapon, the gun which was found in Del Toro's 
car, and Del Toro's clothing spotted with Sheila's blood.
    It should also be noted the two accomplices were also 
identified and they were taken into custody. The Texas rangers 
missed Del Toro by about an hour when Del Toro fled to Mexico 
after he learned the police were looking for him. As you have 
also been told, Del Toro was an American citizen. He was born 
in the United States of America to American parents. He 
murdered an American citizen on U.S. soil. We believe that Del 
Toro's entry into Mexico was illegal under Mexican law and upon 
apprehension that he could have and should have been deported 
back to the United States.
    In fact, that's what we were told would originally happen. 
As a result of some more excellent police work with the Texas 
rangers and the Sarasota sheriff's department, Del Toro was 
apprehended in Monterrey Mexico within weeks of the murder.
    Promptly, Mexican officials announced the decision to 
deport Del Toro to the United States. I received a call in my 
office that afternoon that Del Toro, in fact, was en route to 
the Mexican-Texas border and would be delivered to United 
States officials that evening.
    I waited for the call informing us that Del Toro was in 
custody. Finally around midnight I was notified that for no 
officially stated reason, Mexican officials had rescinded the 
deportation order, Del Toro had been transported to Mexico 
City, and Mexico was demanding that the United States seek 
formal extradition of Jose Del Toro. Shortly thereafter, the 
United States Department of Justice informed us that the 
Mexican Government would not extradite Del Toro unless I would 
give assurance that Del Toro would not receive the death 
penalty if extradited. Jose Luis Del Toro was a hard killer. He 
murdered Sheila Bellush in a cold, calculated manner traveling 
from Texas, hiding in Sheila's home. The death occurred in a 
heinous, atrocious, and cruel manner including a gun shot wound 
to the face and a slit throat.
    With the six surviving children, including the quadruplets 
who were present during the murder, it is hard to imagine a 
case with more victim impact than the Bellush family suffered. 
This was undoubtedly a case where the death penalty was 
appropriate. But unfortunately, the people of Florida will 
never have the chance to hold Del Toro fully accountable for 
this heinous crime.
    We were told unless the death penalty was waived, Del Toro 
would be released. And after talking to the Bellush family, we 
felt we had no choice. We agreed to waive the death penalty. We 
filed the necessary extradition papers with the Justice 
Department.
    Despite making that concession a year and a half ago, Del 
Toro has still not been returned. A Mexican judge and the 
Mexican foreign ministry have approved the extradition. The 
case is now stalled in the Mexican supreme court of justice. 
The Mexican Government refuses to provide satisfactory answers 
to our questions about the status of the extradition. No one 
can tell us when to expect a resolution or even if that 
resolution necessarily ends Del Toro's appeal possibilities.
    My office is in almost weekly contact with the Justice 
Department, the American Embassy in Mexico City, and the 
Mexican Embassy here in Washington. I have spoken with Attorney 
General Reno, whom I worked with as a prosecutor in Florida, 
about this case.
    Even now, the Justice Department and U.S. officials have 
tried to be helpful. I know their hands have been tied by 
Mexico's complete lack of information and misinformation. We 
were originally told by Mexican officials that this whole 
process would take 3 to 4 months. That was 18 months ago.
    Mr. Chairman, we thank your committee for seriously 
considering this matter and urge you to take some action in 
this case. We have not been able to accomplish anything through 
other channels. The citizens in our community do not believe 
that justice is being done and feel outraged at being held 
hostage by Mexico. We hope that you will hold Mexico 
accountable for their actions in this case and that Jose Luis 
Del Toro will be returned to Florida to face justice.
    I'll be happy to answer any of your questions. Mr. Charlie 
Roberts is the lead prosecutor in this case. He prosecuted the 
codefendants. He's also here to answer your questions and we 
thank you.
    [The prepared statement of Mr. Moreland follows:]
    [GRAPHIC] [TIFF OMITTED] T3595.025
    
    [GRAPHIC] [TIFF OMITTED] T3595.026
    
    Mr. Mica. Thank you for your testimony, Mr. Moreland. I 
have some questions. First of all, Ms. Warren with the 
Department of Justice, I'm a little bit concerned, in your 
statement you said there's a renewed attitude of cooperation at 
the highest levels of both governments to pursue immediate and 
intense consultations on how to address common problems in this 
area and bring these fugitives to justice. But you also 
testified that we have actually lost ground on the deportation 
matter. Can you tell us where we really are? These seem to be 
contradictory. You're saying one thing and doing something 
else.
    Ms. Warren. The deportation issue and that we were losing 
ground was just brought to the Mexican authority's attention 
and really just came to our attention in the past month.
    It was brought to the Mexican authority's attention by 
Attorney General Reno when she was down there earlier this 
month. She spoke directly to their interior minister who 
oversees their immigration department.
    Mr. Mica. Is that Green?
    Ms. Warren. No, Rosario Green is their secretary of state, 
their foreign minister. The interior minister new to that 
position, his name is Carrasco. She met with him personally and 
brought this to his attention. He said he would look into it. 
We have also sent a list of target deportations to them, 
individuals that we believe are U.S. citizens that can be 
located and are sought on charges here. He promised at that 
time that he would look into it and try to act.
    Mr. Mica. So we're actually losing ground, you testified, 
on the deportation question.
    Ms. Warren. So far this year and I wanted to bring that to 
this subcommittee's attention.
    Mr. Mica. That's very frustrating. I have been down there 
personally, met with Green and met with the attorney general 
and others. You also testified you thought this would be the 
subject of immediate and intensive consultations. Can you 
elaborate on that? What is planned? Where are we taking this 
from here?
    Ms. Warren. Just that the highest levels have agreed that 
we will need to treat this at the highest levels.
    Mr. Mica. Are there planned meetings? Are there----
    Ms. Warren. There will be meetings within the next month.
    Mr. Mica. And you said at the highest levels. Is that----
    Ms. Warren. Any problems that cannot be immediately 
resolved, any misunderstandings or disagreements as to what the 
process is, what the level of proof that's necessary in an 
extradition request is, those kinds of issues. If they cannot 
be resolved, they will be referred to cabinet level officers 
for review.
    Mr. Mica. Do you know if the Department of Justice or the 
Attorney General has any recommendations to Congress, any 
legislative changes or changes in policy that we determine--we 
certainly give them tremendous trade and financial benefits. Is 
there anything that you're recommending that we can do to give 
you better leverage or positioning to deal with the situation 
in Mexico in particular?
    Ms. Warren. Well, there are several recommendations in the 
anticrime bill for the 21st century that would be helpful here. 
For example, one of the recommendations is that defendants not 
be given credit for the time abroad fighting extradition. He 
should not get credit on his later sentence, once tried in the 
United States, for that time served in delaying the process.
    We've offered that as a suggestion. Another: to create a 
fund for district attorney offices and local prosecutors to 
compile these enormously expensive extradition documents and 
translation. Sometimes it is back-breaking to a local 
prosecutor's budget.
    We would also like to strengthen our immigration laws so 
that we can refuse entry to someone fleeing from justice from 
another country; have that as a grounds for denying them entry.
    Mr. Mica. Well, if you have any additional recommendations 
we would certainly like to hear about them, either in this as 
part of this record or submitted to the subcommittee. You also 
testified that the Mexican judicial system, I think you said, 
is prone to corrupt practices. Obviously, to pursue this in 
Mexico, Mr. Del Toro has to have some finances. Do we know 
where he--how he's financing these appeals and how this process 
is moving forward? He's gaming the system. Do you have any 
direct knowledge or do we have any knowledge that corruption 
has played a part in his delaying this process and us getting 
justice served?
    Ms. Warren. We have no knowledge or information about 
corruption in this particular case. Just within Mexico, they 
recently suspended a magistrate for what they believed was 
corruption in a decision in the Adon Amezcua case. However, we 
are concerned about who is financing Del Toro's challenges. 
This is a costly affair to go on and on. And we have formally 
requested an investigation by the Mexican authorities into the 
source of funds for these innumerable appeals.
    Mr. Mica. You mentioned the Amezcua case--that's the one 
who had the charges dropped and he was released or was that--
there are two brothers who were the methamphetamine kings who I 
believe had charges also dropped that are still kept. One was--
--
    Ms. Warren. This is Adon, not the two brothers. We had no 
charges on Adon, only Mexican charges. And that's the one.
    Mr. Mica. I have an incredible array of mug shots. These 
are Mexican nationals, not United States nationals, who we have 
requested extradition and, in fact, part of the work of this 
subcommittee is to seek their extradition.
    I think they're putting up a couple of the particular 
suspects here.
    We're having the same problem with our drug kingpins in 
addition to murderers. I asked the question about how Del Toro 
is financing these appeals. Is the Department of Justice 
looking into that or anyone? State? Anyone?
    Ms. Warren. We have not had any information in the United 
States about that, but we believe there might be some 
information in Mexico. Therefore, we have filed a formal 
request for an investigation of who is paying his attorney's 
fees.
    Mr. Mica. The other thing that came to mind today in 
hearing this very compelling testimony is that we have systems 
in place that notify folks of progress in the investigation 
where there's an airline crash. We have all kinds of other 
things that Congress has required that have been instituted.
    It seems to me that the Department of Justice or State 
ought to have some mechanism to at least keep the victim's 
family informed in these cases, particularly these heinous 
murders and crimes where these folks are using extradition as a 
cover. Is the department planning to put in place any 
procedures or some system of notification?
    Ms. Warren. That I don't know. I can tell you in this 
particular case, on a biweekly basis we have contacted Mr. 
Moreland's office to keep them up to date. We have also 
provided some advice to Mr. Miller's office from time to time. 
We have tried to keep in contact, in regular contact with the 
prosecutor whom we feel in many ways we represent in these 
extradition proceedings.
    Mr. Mica. Finally, you said you felt a little bit boxed in, 
that a mistake was made at the beginning about whether to 
request deportation. But then, I'm even more dismayed when I 
hear that now deportation is falling apart.
    Ms. Warren. I also need to be clear on that. The same 
amparo process is available in deportation cases from Mexico. 
So it's only speculation that he would have been returned more 
swiftly through deportation than extradition. It's our 
understanding the reason why the Mexican authorities chose 
extradition over our first alternative, which was deportation, 
was that they believed they had better standing and clearer 
authority to arrest and detain such a violent person that they 
did not want out on the streets or to escape justice.
    Mr. Mica. Thank you. Mr. Cummings.
    Mr. Cummings. Mr. Moreland, first of all I hope that you 
will extend our compliments to the police department for doing 
what appears to be an outstanding job. I mean, having practiced 
criminal law for 20 years, I know these cases--I mean, you can 
have some real difficulty. But, as I look at the time line and 
what you all were able to accomplish, it is phenomenal.
    Mr. Moreland. Yes, sir. I will thank you. They did do an 
outstanding job.
    Mr. Cummings. I'm kind of confused about a number of 
things. I just want to try to figure out where we are here.
    Ms. Warren, does Mexico have something comparable to our 
life imprisonment sentence? Do they sentence people to life?
    Ms. Warren. They sentence them to a term of years. For 
example, in the Alvarez case that has been mentioned here 
several times, the defendant up for murder sought out of Los 
Angeles, was sentenced to 90 years.
    Mr. Cummings. Do they have a comparable thing to what we 
have here, time off for good behavior and that kind of thing?
    Ms. Warren. As I understand it, they do have a good time, 
some credit there that's given; but with the term of years like 
that, I believe it is expected to be actual life in the end. 
But they don't have a penalty ``life'' as we do.
    Mr. Cummings. So a basis for this, for these appeals, I 
mean, for--like a defense I guess here would be--and I can't 
remember exactly what you said that life, the life, possible 
life sentence might be, something that might be raised? Or has 
been.
    Ms. Warren. That has been a problem in some other cases; it 
has not been raised here. And it is not recognizable under our 
treaty and should not prevail. Those cases remain on appeal.
    Mr. Cummings. Mr. Moreland, I don't know whether you can 
answer this or not, but we're talking about the financing of 
this--of what's going on in Mexico. Do you all have any 
theories on whether there's still money flowing any kind of 
way? I mean with regard to the--and it might be information you 
can't disclose but I was just curious.
    Mr. Moreland. It is difficult to speak to that, but that's 
certainly one of the frustrating things, the unanswered 
questions. We were really unable to find out despite inquiries 
that were made. We're very glad to hear that recently the 
Justice Department has made official inquiries with the Mexican 
Government to try to find those answers.
    Mr. Cummings. Two defendants have been convicted. Is that 
right?
    Mr. Moreland. Yes, sir, two have been convicted.
    Mr. Cummings. You don't think anything is happening there 
money-wise?
    Mr. Moreland. No. Those two have been convicted. They're 
both in jail at this time.
    Mr. Cummings. This amparo, is that how you pronounce it?
    Ms. Warren. Amparo.
    Mr. Cummings [continuing]. Process. A person can just go to 
any court anywhere?
    Ms. Warren. It appears to be, the amparos were not filed in 
the extradition court but in two other district courts. Yes.
    Mr. Cummings. So that can be raised at any time.
    Ms. Warren. I would like to think there are some 
limitations on how many times they can raise them. They 
certainly have not been able to raise the same issue twice, but 
they're not required, as our defendants are, to accumulate in 
one application all their claims.
    Mr. Cummings. Now, one of you ladies mentioned that we have 
had cases where, out of Mexico--and I think it was based upon 
these--where drugs were involved, where folks were extradited. 
Is that right?
    Ms. Warren. We have had many extraditions from Mexico. 
There were 12 last year. Many on narcotics charges. We have not 
had a Mexican national drug kingpin ever extradited, but we 
have had other narcotics traffickers extradited including a 
Mexican national return to serve his drug sentence here in the 
United States from which he had escaped, for example.
    Mr. Cummings. Do you get the impression--and I'm just 
trying to put this puzzle together--do you get the impression 
that when you look at this crime, this is a horrendous crime.
    Ms. Warren. Yes.
    Mr. Cummings. And I'm just wondering do you get the 
impression that the Mexican authorities say when you compare 
this to a drug case--what we do is we have been able to get 
people extradited. Here we have a horrendous crime, a murder, 
which is far more serious. And I'm just wondering do you get 
the impression that the Mexican Government looks at this from 
the stand point, well, this is something where we know that 
this person may get a life sentence, is far more serious, so we 
want to do more to be protective of them? I'm just curious.
    Ms. Warren. I can tell you that within the past few years 
there have been seven extraditions from Mexico on murder-
homicide charges to the United States. That includes a Mexican 
national for killing a border patrol agent, for example. So 
they do extradite on homicide and where they're facing 
certainly up to life in prison.
    Mr. Cummings. Is there something that was done in that case 
that is much different than this case, the one you just 
mentioned? In other words, do we have all of these filings?
    Ms. Warren. In those other cases, not as many amparos were 
filed. Sometimes--they sometimes took up to 2 years to resolve. 
But we didn't have the same array of filings, as far as I 
recall.
    There have been some terrible offenders. They're charged 
with terrible crimes anyway in the United States, sexual abuse 
and murder of minors, and we have sought their extradition and 
they have been extradited.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Cummings. I recognize now the 
gentleman from Texas, Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman, very much. Mr. 
Moreland, first, for whatever it's worth, on the waiver of the 
death penalty, I think you did absolutely the right thing. I 
know that wasn't an easy decision to make at all. Our families 
had an experience with violent crimes ourselves. I'm a strong 
advocate of the death penalty. As tough as that decision was, I 
just want you to know I think you did the right thing.
    Second--and I'll direct this to Ms. Borek and Ms. Warren--
isn't this problem growing, the problem of people seeking safe 
havens in other countries? Seems to me, as they flee the 
country, as their crimes become more sophisticated as drug 
traffickers, money launderers, exploit loopholes--it seems to 
me this problem is not going away.
    In fact, it's only going to get worse, which leads to the 
next question. Half of our extradition treaties are pre-World 
War II. The last round of updated treaties that was brought to 
the Senate, the majority of those treaties were a quarter of a 
century old.
    We seem to have a patchwork of mutual legal agreements in 
country prosecutions, provisional arrests, and just a whole 
patchwork of issues that we're trying to--the patchwork of 
solutions. But we have serious issues on the death penalty, now 
on life in prison, which scares me because the question is, 
where do we draw the line on whether the countries tell us our 
justice system can bring about?
    Haven't you made a very strong argument for renegotiating 
our treaties with Mexico as well as with other countries? And 
finally, why hasn't the State Department and Justice Department 
communicated with Mr. Bellush? I mean, at the local level 
prosecutors like Mr. Moreland and others understand that it is 
not only, in some cases, the rights of victims to know the 
status of those cases but just basic human decency tells you 
that is something you must do.
    When the responsibility shifts from the local prosecutor to 
the Federal level to bring justice about, it seems to me it's 
our responsibility at the Federal level, State and Justice, to 
communicate on a regular basis. To set up a system whether it's 
a toll-free line or liaison or victims' rights advocates. We're 
doing it at the local level all the time because we know that 
is the right thing to do.
    I don't understand why we don't have that in place. Maybe 
we do and I'm wrong. But if we don't, it's way past time to do 
that.
    And with that, Mr. Chairman, I'll let them answer all those 
questions.
    Ms. Borek. All right. Well, I'll start. And I think then 
Ms. Warren will have to fill in. Although Justice is in a 
better position to give a professional opinion, I think it's 
true there are more problems. There is more crime; it is more 
sophisticated. Therefore, you have--in a certain sense you have 
more quantity of difficulty.
    I think also in the area of the death penalty, that is 
potentially a growing problem because of the attitudes about 
the death penalty. For example, as you know, Amnesty 
International, I believe, has a big campaign against the death 
penalty. This is a particular kind of problem.
    On the extradition of nationals, on the other hand, we like 
to believe that this is a problem which we are managing to 
begin to resolve, because countries must see that this is not a 
viable approach given the modern realities of transnational 
crime.
    We have a very aggressive program of renegotiating 
treaties. We had a hearing last fall where I think we had some 
30 mutual legal assistance treaties and extradition treaties. 
The mutual legal assistance treaty program is completely new. 
And there we don't even have old treaties to go by. We have to 
start from scratch. The problem in the area of death penalty 
and nationality is not the renegotiation of treaties. It's that 
the other countries have to agree to it. And sometimes they 
don't.
    And so we have even recent treaties, for example with 
France, that do not provide for the extradition of nationals 
and that do not have clear provisions on death penalty cases.
    I do hope that we can draw the line at death penalties; we 
have been very, I think, staunch in our reaction to life 
imprisonment issues, which are not provided for generally in 
treaties, and we don't want to start providing for them.
    As far as contact, I think I have to defer really to the 
Justice Department. We play a very secondary role in connection 
with the actual management of individual U.S. requests. They 
grow out of prosecutorial activity. We become involved in the 
areas of the State Department expertise.
    I have to say, we have eight lawyers and three paralegals 
who handle not only 3,000 extradition requests outgoing and 
incoming, but all of our multilateral treaty negotiations on 
crime and terrorism, all of the work on terrorism, all of the 
bilateral agreements, a growing number of multilateral 
initiatives in the G-8 and EU, for example, in addition to 
providing all the domestic legal support for the international 
crime and drug activities of the State Department, plus 
certainly a lot of the intelligence activity.
    Mr. Brady. If I may interrupt. That case load isn't an 
excuse. We have counties with more than 3,000 cases, active, 
that they are dealing with, and they know that it is critical 
that they communicate with the victims in those crimes, 
especially the violent crimes. And they have set up the systems 
to do that, not flawlessly certainly, but it is now recognized 
as a basic right and service of prosecution. And for whatever 
it is worth, if you need the resources, ask for the resources. 
There are a number of us who I think would go to bat for you on 
that.
    Ms. Borek. As I say, I don't think we're the best people to 
do that because the real detailed understanding and expertise 
on the case-management side is at the Justice Department. But I 
do think that it is a question that's been raised about how 
much contact there really is at the Federal level as opposed to 
the State and local levels. I note there's been a tremendous 
amount of contact with the State and local prosecutors in the 
course of these activities. Thank you.
    Ms. Warren. Maybe just quickly, to agree that I think crime 
is growing, certainly transnational crime, so that we have--now 
we're seeking the extradition of so many defendants who have, 
in fact, never physically come into our country but caused 
crimes here, through narcotics trafficking and other ways.
    But I think that I agree with Ms. Borek that there is a 
growing realization in the international community that 
international crime threatens everyone and that this is a 
matter of trust between nations. There is a change, a real 
trend toward extraditing nationals that before it was 
unspeakable. For instance, in the western hemisphere in Latin 
America, now Bolivia, Argentina, and Mexico have extradited 
nationals and we have four requests before Colombia at the 
moment.
    So crime is getting worse, but I think there's a better 
understanding about the transnationality of that crime.
    In terms of communicating with victims, as I said before, 
we tried to meet what clearly are our obligations by keeping 
the local prosecutor informed. Perhaps we need to work a lot 
harder on that in speaking with the local prosecutor about 
ensuring that, who takes the responsibility in notifying and 
keeping up to date the victim's family, something clearly we 
can work on and discuss how best to handle it. It is helpful to 
have it brought to our attention in such a powerful way.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Mica. Mr. Souder, did you have any questions?
    Mr. Souder. No, other than as Mr. Miller has brought this 
case to my attention as we've brought forth, it's hard to 
understand how we got in this situation. Other than continuing 
to express our outrage, which we ought to do regularly whenever 
we have a chance, to the Mexican Government. And if we weren't 
such a decent country, why, we ought to snap somebody up and 
force an exchange.
    Because it's outrageous. There is no reason that there 
should be an extradition process. We have enough trouble 
getting drug traffickers who are responsible for deaths in this 
country who are citizens of Mexico back. Why in the world an 
American of--I mean, I don't understand the process. I have 
read your testimony. I'm sure like others I'm outraged.
    This is a matter of keeping the pressure on and working 
with Mr. Miller to do everything we can and the chairman of 
this subcommittee and the other committees. So I thank you for 
holding the hearing, for continuing to go forth. Because while 
this looks like a case that directly relates to a tragic murder 
in Florida, this could affect any of us in any of our States, 
and we need to look at the international policy between the 
United States and Mexico and elsewhere. And you may at least be 
helping save other people from similar pressures because of 
your persistence. Thank you very much.
    Mr. Mica. I thank the gentleman. I have just a couple of 
closing questions. First of all, Ms. Borek, are there written 
communications between the Secretary of State and her 
counterpart relating to the Del Toro case?
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3595.027
    
    [GRAPHIC] [TIFF OMITTED] T3595.028
    
    [GRAPHIC] [TIFF OMITTED] T3595.029
    
    [GRAPHIC] [TIFF OMITTED] T3595.030
    
    [GRAPHIC] [TIFF OMITTED] T3595.031
    
    Ms. Borek. I don't believe so, sir.
    Mr. Mica. Can you check the files? And if there are, I'd 
like to request--and I'll ask staff to make a formal request to 
the Department of State for any written communications.
    Now, there was a high-level working group just a couple of 
weeks ago. I know the Attorney General was there. Is that 
correct? I think the Secretary of State was scheduled to go, 
but she got waylaid to go into the Balkans region and the 
conflict there. Who represented the Department of State at 
those high-level groups, Ms. Borek?
    Ms. Borek. We had the Acting Secretary for Western 
Hemisphere Affairs and also the Assistant Secretary for 
International Narcotics and Law Enforcement.
    Mr. Mica. And was this case in particular----
    Ms. Borek. An Ambassador.
    Mr. Mica [continuing]. Raised by those representatives?
    Ms. Borek. Sir, I believe Ms. Warren was actually present 
at all of the meetings.
    Mr. Mica. I'm not asking about Ms. Warren. She's already 
testified. I'm asking about the Department of State, which is 
responsible to deal with these other countries. Was that raised 
by either of these individuals, this case?
    Ms. Borek. Not as a case. They raised the extradition----
    Mr. Mica. Have either of those individuals transmitted any 
communications with any officials in the Mexican Government 
relating to this case? Can you also check that.
    Ms. Borek. I'll check that.
    Mr. Mica. And provide the subcommittee with a copy.
    Do you know if the Secretary of State plans to raise this 
as an issue now, this particular case?
    Ms. Borek. There is not a present plan to raise it. If 
there is usefulness in doing so, I'm sure we would.
    Mr. Mica. We have had the Department of Justice testify 
today that this is going to be the subject of immediate and 
intensive consultation. As the Department of State, this whole 
issue of extradition and the problems we're having with 
deportation, who's going to participate in that or who is 
participating? Is that going to be the Secretary of State or 
some of the individuals you just mentioned?
    Ms. Borek. The plan is not final, but as I understand it 
would be high-level individuals, at the level that we've been 
discussing, short of the Secretary of State, and then if there 
were remaining issues, they would be raised to higher levels.
    Mr. Mica. I would like staff to prepare a letter from the 
committee asking that this be raised, and we'll get the members 
to sign that both by the Secretary of State or the Secretary of 
State's representatives, and to the Department of Justice, the 
Attorney General and their representatives.
    Now, you've been here before, Ms. Moreland on this issue; 
and you're back again, and I understand that you've testified 
that this is going to be the subject of immediate and intensive 
consultation. I will tell them, the minority and the other 
members of the panel, and we'll notify them that we will have 
another hearing on this issue. I don't know if we'll be able to 
do that the first week in August or when we return in 
September, but if necessary, we will request the presence or 
subpoena both the attorney general and the Secretary of State 
to testify on the progress of this.
    We believe this is a very, very important issue. I don't 
know how we're going to get attention from those--and our job 
is only as representatives of the people to try to make the 
executive branch respond to our request and what our citizens 
are requesting. Certainly, the Bellush family deserves justice 
in this case, not to mention the dozens and dozens of drug 
kingpins who still are at bay.
    Ms. Moreland, do we have any hope on the extradition of 
any--I'm sorry, Ms. Moreland. Ms. Warren. I'm sorry. I'll get 
it straight. If I'm going to pick on you, I need to at least 
get your name right. I should know you very well after having 
you back again. Ms. Warren, is there any hope on any of the 
fronts in any of the cases involving Mexican nationals for 
extradition?
    Ms. Warren. There are many of those cases moving through 
their courts.
    Mr. Mica. Can you tell me one? Is there one? Can we ever 
see one Mexican national extradited to the United States?
    Ms. Warren. Well, we have had Mexican nationals 
extradited----
    Mr. Mica. I'm talking about major drug kingpins. I have a 
photographic gallery, and we can provide you with the names. 
Last night I submitted the names in the Congressional Record 
and will supply you with that. Is there any hope of getting any 
of those specific----
    Ms. Warren. Looking at your array here of photographs, as I 
understand it, through their deputy attorney general in Mexico, 
the courts have recently decided in favor of the extradition of 
Arturo Paez-Martinez. That is the case that may very well be 
the conflict of law case that will go to their supreme court, 
along with the adverse decisions that we've had. But that case 
is moving more swiftly now.
    Mr. Mica. That may be our only hope.
    Ms. Borek, one question I forgot to ask and request, the 
President of the United States met with the President of Mexico 
in the Yucatan peninsula earlier this year. Do you know if the 
President of the United States brought, in particular, the Del 
Toro case to the attention of President Zedillo then or since? 
And I would imagine that the Department of State would have 
copies of any of his communications. If so, could you provide 
the subcommittee with a copy of any of the above?
    Ms. Borek. Sir, I did check because you asked before and 
I'm informed that the President didn't raise this case in 
Merida. As for subsequent communications, I would have to 
consult with the NSC.
    Mr. Mica. Would you also do that. And could we also have 
the staff prepare a letter to the President requesting his 
attention to this case.
    Mr. Brady. Mr. Chairman, if I may note that both the head 
of the Department of Justice, the Attorney General and the 
Secretary of State, Madeleine Albright, were also present at 
that trip in Merida. And may we ask if either of those raised 
this issue directly with the key people?
    Mr. Mica. If they raised it is one question, and then any 
written communications I would like to have as part of the 
record. If you would comply with that request, we would be most 
appreciative. I will leave the record open for 30 days without 
objection to provide that information. The gentleman from 
Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman. I just 
wanted to have a few comments before we close. I think that one 
of the things that has frustrated me in being in Congress is a 
lot of times we have motion, commotion, and emotion, and no 
results. And that doesn't serve anybody very well.
    I'm glad to hear you say what you just said, Mr. Chairman. 
I mean, when you were the ranking member of the civil service--
chairman. I'm sorry, chairman. Next year I will be able to call 
you ranking member but----
    Mr. Mica. The gentleman from Maryland is recognized to 
continue to dream on.
    Mr. Cummings. But when you were the chairman, one of the 
things that I think we shared--and I was the ranking member of 
that subcommittee--is that we tried to make sure that we acted 
so that things got done, so that we didn't come back a month, 
2, 3 months later or a year later and have the same discussions 
over and over again. And so I was very pleased to hear you say 
what you just said. And I would only echo what you have said. 
Some kind of way we have to try within our power to address 
these issues and make them No. 1 issues.
    When you hear the kind of testimony that we heard today and 
you see those pictures, those pictures--and this will forever 
be imbedded in the DNA of every cell in my brain. When you have 
that kind of testimony, if you can't do it under these 
circumstances, I don't know how we're going to do it.
    I'm constantly reminded that this is the most powerful 
country in the world and that if we can accomplish all the 
things that we are able to accomplish, certainly we ought to be 
able to pull this one off. And so I just wanted to say that. I 
want to thank you, Mr. Bellush, for being with us. I wish you 
and your family well. And you will all be in my prayers. Thank 
you.
    Mr. Mica. I thank the gentleman. I had one more question, 
really, to ask Mr. Earl Moreland. And you don't have to submit 
your answer now. But I would like to have you submit, if you 
can--you have dealt with this situation and with the whole 
extradition process. I asked Ms. Warren and I ask you, if you 
could provide the subcommittee with any recommendations for 
changes in laws or procedures at the Federal level that we may 
be able to institute. Some we may not be able to make changes 
in. We're dealing in an international arena here. But any 
recommendations you might have and could think about and submit 
to the subcommittee, we would like to make as part of the 
record. If you would be so kind to provide that based on your 
experience.
    Mr. Moreland. Yes, sir I will. Thank you for that 
opportunity.
    Mr. Mica. Well, the purpose of this hearing, again, was to 
find out if Mexico is a safe haven for murderers and drug 
traffickers. Unfortunately that question has to be answered 
today in the affirmative. I didn't hold this hearing just to 
pick on Mexico, but to try to hopefully bring justice at the 
request of one of my members who I respect very deeply, Mr. 
Miller, the gentleman from Florida, and for his constituent, 
Mr. Bellush, who has given, again, some of the most compelling 
and riveting testimony I think that's ever been presented 
before a congressional panel, one man and one family seeking 
justice for their loved one.
    Hopefully we can bring this to national, international 
attention; and as Mr. Cummings said, whatever it takes, working 
together, to see that justice is served. Again, we are most 
grateful to you, sir, for testifying, for having the courage to 
come forward and, again, seek justice for your wife and for 
your family.
    And there being now, I'll--excuse me. We do have the 
unanimous request consent, the unanimous consent request by Mr. 
Souder that statement by Mrs. Mink and other Members be 
submitted to the record. We have another statement by Mr. 
Kucinich to be considered by unanimous consent. And any others? 
There being no objection, so ordered. There being no further 
business to come before this subcommittee of Congress, this 
meeting is adjourned.
    [Whereupon, at 12:36 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T3595.032

[GRAPHIC] [TIFF OMITTED] T3595.033

[GRAPHIC] [TIFF OMITTED] T3595.034

[GRAPHIC] [TIFF OMITTED] T3595.035

[GRAPHIC] [TIFF OMITTED] T3595.036

[GRAPHIC] [TIFF OMITTED] T3595.037

[GRAPHIC] [TIFF OMITTED] T3595.038

[GRAPHIC] [TIFF OMITTED] T3595.039

                                   - 

</pre></body></html>
